No:

In the
Supreme Court of the United States

FERNANDO HERNANDEZ,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

PROOF OF SERVICE
I, Fernando Hernandez, do swear declare that on this day, ^Way of June
2020, as required by Supreme Court Rule 29,1 have served the enclosed Motion
for Leave to Proceed in Forma Pauperis and Petition for Writ of Certiorari, on the
Solicitor General of the United States, Room 5614, Department of Justice, 10th
Street and Constitution Ave., N.W., Washington, D.C. 20530, and every other
person required to be served, by depositing the same in the Prison’s Legal Mail
Box with sufficient First Class Prepaid Postage.

I hereby do certify that pursuant to Penalty
of Perjury Title 28 U.S.C. § 1746 that on
this <yi/day of June 2020 I signed and
mailed this document via the Federal Bureau
of Prisons’ Legal Mail System.

Fernando Hernandez
Register Number: 00130-138
FCI Ray Brook
P.O. Box 900
Ray Brook, NY 12977

i

LsT?

No:

In the
Supreme Court of the United States

FERNANDO HERNANDEZ,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

CERTIFICATE OF FILING

I, Fernando Hernandez, pursuant to Supreme Court Rule 29.2 do hereby certify
under penalty of perjury pursuant to Title 28 U.S.C. § 1746, that on June 1/]/,
2020 I placed my copy of my petition for a Writ of Certiorari to the United States
Supreme Court in the Federal - Legal Mail Box for mailing with sufficient First
Class Postage.
I also served the United States Solicitor General with a copy of the brief as
required per Rule 29 of the Supreme Court rules.

*' .

A >

w •

I hereby do certify that pursuant to Penalty
of Perjury Title 28 U.S.C. § 1746 that on
this fl/)/ day of June 20201 signed and
mailed this document via the Federal Bureau
of Prisons’ Legal Mail System.

Fernando Hernandez
Register Number: 00130-138
FCI Ray Brook
P.O. Box 900
Ray Brook, NY 12977

